OFFICE OF THE ATTORNEY GENERAL
STATE OF ILLINOIS

KWAME RAOUL
ATTORNEY GENERAL

August 30, 2019
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Jeryme Morgan v. Minh Schott, et al.
No. 19-47

Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4, Respondents Minh Schott, Tim Veath,
and Hudson Maynard respectfully request a 46-day extension to October 29, 2019, to
file their response to the petition for a writ of certiorari in the above-captioned case.
On August 14, 2019, the Court directed Respondents to file a response to the petition
by September 13, 2019. I have contacted counsel for Petitioner, who indicates that
he has no objection to this request for a 46-day extension of time.
This extension is necessary due to current and recent work responsibilities.
Specifically, I filed a response brief in Reed v. Illinois, No. 19-1164 (7th Cir.), on
August 28, 2019, on three extensions of time, and I am currently preparing for oral
argument in Proft v. Raoul, No. 18-3475 (7th Cir.) (Sept. 6, 2019), and drafting the
brief in opposition to the petition for a writ of certiorari in Thomas v. Anderson, No.
18-1424, which is due on September 30, 2019, on one extension of time. In addition,
as a supervising attorney, I devote substantial time to performing supervisory and
administrative duties, such as reviewing briefs and jurisdictional issues in numerous
appeals and helping attorneys prepare for oral arguments and mediations ordered
pursuant to 7th Cir. R. 33.

500 South Second Street, Springfield, Illinois 62701 (217) 782-1090 TTY: (877) 844-5461 Fax: (217) 782-7046
100 West Randolph Street, Chicago, Illinois 60601 (312) 814-3000 TTY: (800) 964-3013 Fax: (312) 814-3806
601 South University Ave., Carbondale, Illinois 62901 (618) 529-6400 TTY: (877) 675-9339 Fax: (618) 529-6416

OFFICE OF THE ATTORNEY GENERAL
STATE OF ILLINOIS

KWAME RAOUL
ATTORNEY GENERAL

This is Respondents’ first request for an extension of time. It is not made for
purposes of delay, but so that I may meet my professional responsibilities, properly
represent my clients, and provide this Court with a thorough brief in this matter.
Very truly yours,
/s/ Frank H. Bieszczat
Assistant Attorney General
Office of the Illinois Attorney General
100 West Randolph Street, 12th Floor
Chicago, Illinois 60601
(312) 814-2234
fbieszczat@atg.state.il.us
cc: Michael A. Scodro, Counsel for Petitioner

500 South Second Street, Springfield, Illinois 62701 (217) 782-1090 TTY: (877) 844-5461 Fax: (217) 782-7046
100 West Randolph Street, Chicago, Illinois 60601 (312) 814-3000 TTY: (800) 964-3013 Fax: (312) 814-3806
601 South University Ave., Carbondale, Illinois 62901 (618) 529-6400 TTY: (877) 675-9339 Fax: (618) 529-6416

